October 23, 2020

Scott Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington D.C. 20543-0001
Re:

Rentberry Inc. v. City of Seattle, No. 20-538

Dear Mr. Harris:
Pursuant to Supreme Court Rule 37.2(a), Petitioners Rentberry, Inc. and Delaney
Wysingle hereby give blanket consent to the filing of amicus curiae briefs in support of
either or neither party in the above-referenced case, with respect to the petition for
writ of certiorari filed on October 20, 2020. Thank you for your assistance.
Sincerely,

DEBORAH J. LA FETRA
Counsel for Petitioners
cc: Counsel for Respondents

